No. 20-5075
IN THE SUPREME COURT OF THE UNITED STATES
JORGE HIRAM BAEZ-MARTINEZ, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES, via e-mail and first-class mail, postage
prepaid, this 16th day of September 2020.
[See Attached Service List]
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 16, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5075
BAEZ-MARTINEZ, JORGE HIRAME
USA

FRANCO LORENZO PEREZ-REDONDO
241 F.P. ROOSEVELT
SAN JUAN, PR 00918

